HHS/OIG, Audit - "Review of Billing Procedures for Medicare
Claims Submitted to Palmetto GBA by Inpatient Psychiatric Facilities During
2005," (A-01-07-00507)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Billing Procedures
for Medicare Claims Submitted to Palmetto GBA by Inpatient Psychiatric
Facilities During 2005," (A-01-07-00507)
July 19, 2007
Complete Text of Report is available in PDF format (648 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether inpatient
psychiatric facilities (IPF) properly submitted Medicare claims paid by
Palmetto GBA (Palmetto) for transition stays.  IPFs did not always properly bill
claims paid by Palmetto for transition stays in 2005.  Specifically, for 77 of
the 100 claims that we sampled (from the population of 226 claims), IPFs
incorrectly split the beneficiarys stay by submitting 1 claim under the Tax
Equity and Fiscal Responsibility Act of 1982 payment period and a second claim
under the prospective payment period, rather than properly submitting 1 claim
for the entire inpatient stay.  Based on our sample results, we estimate that
Palmetto overpaid IPFs a total of $706,285 for incorrectly billed Medicare
claims for transition stays in 2005.
We recommended that Palmetto (1) make the appropriate
adjustments to the sampled claims that resulted in overpayments of $312,516, (2)
review our information on the additional 126 claims with potential overpayments
estimated at $393,769 ($706,285 less $312,516) and work with the IPFs that
provided the services to recover any overpayments, and (3) analyze postpayment
data from IPF claims submitted after our review to ensure that the claims were
billed properly and paid correctly by Palmetto.
Palmetto agreed with our findings and recommendations and stated that it was
taking appropriate action.